No. 20-6858
IN THE
SUPREME COURT OF THE UNITED STATES
Benjamin Mario Soto PETITEIONER
Vs.
AFSCME Union Council 5 Local 2181 et al, and
Minnesota Department of Human Services et al

RESPONDENTS ON PETITION
FOR A WRIT OF CERTIORARI TO

MINNESOTA SUPREME'OURT

REQUEST FOR REHEARING FOR WRIT OF CERTIORARI

BENJAMIN MARIO SOTO
407 GOODRICH AVE.
ST.PAUL, MINNPESOTA, 55102
PHONE: 612-449-4921

As evidenced by all orders issued by the judicial officers in all Minnesota Courts et al of
this case are fraudulently depriving me of my legal and contractual due process rights
and equal protection of the laws arbitrarily in violation of both Federal and State
Constitutions and the laws pursuant to claiming that the U.S. Constitution including
42USC1983 does not apply/(has no force of law) in any State of the Union acting beyond
their judicial capacities fraudulently legislating/extrapolating law deliberately
_fraudulently misipterpreting the cleaGand explicitlanguage of governingCBA-cont
It4 r
t
v-d-r
8 4 91,04- ec
14,1y
icy k 8.'22 /'')/#,Si
e
la yet LI ate) -A-5
10,4-e
/ Page

are in clear violation of their oaths or affirmations of office includ
ing violating Articles 1
and 6 of the U.S. Constitution as I conveyed many times in all
my filings in their courts
acting clearly outside their judicial capacities or in complete absen
ce of jurisdiction
hence has no 11th Amendment Immunity with the State of
Minnesota fraudulently
claiming immunity from suit and therefore not required to fulfill
their contractual
obligations in their courts utilizing the reasons/laws/ (case laws)
of this case all of this
_ State fraud needs to be corrected-13y.
federal-e

ict'

9.8.3-ac-tien which W43 the Supreme Laws of the

Land and anything to the contrary notwithstanding to which all
Federal and State
Judicial Officers took a Solemn Oath or affirmation to uphold
(according to)/(re

quired

by) Article 6 of the U.S. Constitution
apply-anel-is-Gontr-afy-te-Bt-pert-e-Ye4+Rg-ease-law) guaranteein

g the Rights of We the

People as promised.

Ali v. Cangemi, 419 F.3d 722, 723(8th Cir. 2005) does not apply

to this case since Ali was

released from imprisonment

requiring an

issuing of a Writ of Habeas Corpus to be absolutely unnecessar

y but in my case I am still

being deprived of my rights witheut-uncertainty by the State

of Minnesota Governmento

Page 2 of 3

The State and Federal Courts are allowing the State of Minnesota Government to make
contracts and then grant immunity for breach of contract with my case which will be
used as case law precedence in future decisions.
Respectfully Submitted

I
Name:

ate:
Benjamfii Mario Soto Pro Se

ei/o0e,0./

Phone: 612-8343-798-2-4q
7a
Email: benjamin:soto30@yahoo.com

Page 3 of 3

No. 20-6858
IN THE
SUPREME COURT OF THE UNITED STATES
Benjamin Mario Soto PETITEIONER
Vs.
AFSCME Union Council 5 Local 2181 et al, and
Minnesota Department of Human Services et al

RESPONDENTS ON PETITION
FOR A WRIT OF CERTIORARI TO

MINNESOTA SUPREME COURT

REQUEST FOR REHEARING FOR WRIT OF CERTIORARI

BENJAMIN MARIO SOTO
407 GOODRICH AVE.
ST.PAUL, MINNESOTA, 55102
PHONE: 612-449-4921

This entire case all my filings to the Minnesota District Court from the very beginning to
the Minnesota Supreme Court needs a De Novo Review by the U.S. Supreme Court as
evidenced by all orders issued by the judicial officers in all Minnesota Courts et al of this
case are fraudulently substantially depriving me of my legal and contractual due process
rights and equal protection of the laws arbitrarily deciding the substantiating fact in
violation/deprivation of my 7th Amendment U.S. Constitution request in my initial
compliant in violation of both Federal and State Constitutions and the laws pursuant to

Page 1 of 3

claiming that the U.S. Constitution including 42USC1983 does not apply/(has no force of
law) in any State of the Union acting substantially beyond their judicial capacities
fraudulently legislating/extrapolating law deliberately fraudulently misinterpreting the
clear and explicit language of governing CBA contract nowhere in the governing CBA
stated I was an "at will" employee (I read the entire contract) but the CBA does state
that I had "just cause" rights, are in clear/ substantial violation of their oaths or
affirmations of office including violating Articles 1 and 6 of the U.S. Constitution as I
conveyed many times in all my filings in their courts acting clearly/ substantially outside
their judicial capacities or in complete/ substantial absence of jurisdiction hence has no
11th Amendment Immunity with the State of Minnesota fraudulently claiming immunity
from suit and therefore not required to fulfill their substantial contractual obligations in
their courts utilizing the reasons/laws/ (case laws) of this case all of this State
substantial fraud needs to be corrected by the U.S. Supreme Court which the Supreme
Laws of the Land and anything to the contrary notwithstanding to which all Federal and
State Judicial Officers took a Solemn Oath or affirmation to uphold (according
to)/(required by) Article 6 of the U.S. Constitution guaranteeing the Rights of We the
People as promised.

Ali v. Cangemi, 419 F.3d 722, 723(8th Cir. 2005) does not apply to this case since Ali was
released from imprisonment requiring an issuing of a Writ of Habeas Corpus to be

Page 2 of 3

absolutely/ substantially unnecessary but in my case I am still being substantially
deprived of all my rights with uncertainty by the State of Minnesota Government.

The State and Federal Courts are allowing the State of Minnesota Government to make
contracts and then grant immunity for breach of contract with my case which will be
used as case law precedence in future decisions in substantial violation of Article 1st of
the U.S. Constitution.

Respectfully Submitted in Good Faith and Not for Delay

Name:

ate:

OVI-V210

Benjamin Mario Soto Pro Se
Phone: 612-839-7982
Email: benjamin.soto30@yahoo.com

Page 3 of 3

